HHS/OIG, Audit -"Review of Postretirement Benefit Costs Claimed by Veritus, Inc. of Pennsylvania,"(A-07-05-00186)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Postretirement Benefit Costs Claimed by Veritus, Inc. of Pennsylvania," (A-07-05-00186)
June 6, 2005
Complete
Text of Report is available in PDF format (703 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of the postretirement benefit (PRB) costs Veritus
claimed for Medicare reimbursement on an accrual basis.  We found that Veritus did not include
in its Final Administrative Cost Proposals (FACPs) all of the PRB costs that were allowable pursuant
to Federal regulations.  As a result, for fiscal years (FYs) 1995 through 1997, Veritus did not
claim $201,785 of PRB costs that were allowable for Medicare reimbursement.  In addition, Veritus
did not receive CMS approval for its change in accounting methodology for PRB costs.  We recommended
that Veritus revise its FACPs for FYs 1995 through 1997 or submit a claim for additional allowable
PRB costs of $201,785.  After addressing the issues raised under Other Matters, Veritus should
seek approval for its change in accounting practice.
Veritus agreed with our recommendation to revise its FACPs or submit a claim for additional allowable
PRB costs of $201,785.  Additionally, Veritus agreed that it did not seek CMS approval for its
change in accounting methodology for PRB costs.  However, Veritus disagreed with our statement
in the Other Matters section that Veritus should be precluded from including unfunded PRB costs in
any future claims to the Federal Government.  Veritus believes that by requiring contractors to
use FAS106 in calculating PRB costs, the Federal Acquisition Regulations irreconcilably conflict
with the Internal Revenue Service limitations on Voluntary Employee Benefit Association funding.